                                Office of Inspector General
                               Corporation for National and
                                        Community Service




                     AGREED-UPON PROCEDURES FOR CORPORATION 

                     FOR NATIONAL AND COMMUNITY SERVICE GRANTS
	
                           AWARDED TO NEVADA VOLUNTEERS
	

                                      OIG REPORT 14-08




                              Prepared by:

                        CliftonLarsonAllen LLP
	
                    11710 Beltsville Drive, STE 300
	
                         Calverton, MD 20705
	




This report was issued to Corporation management on May 23, 2014. Under the laws
and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than
November 24, 2014 and complete its corrective actions by May 25, 2015.
Consequently, the reported findings do not necessarily represent the final resolution
of the issues presented.
                                  Office of Inspector General


                                NXflONAL& 

                                 COMMUNITY 

                                SERVICEtX141
                                         May 23, 2014



TO: 	         William Basl
              Director, AmeriCorps*State and National

               Margaret Rosenberry 

               Director, Office of Grants Management 



FROM: 	       Stuart Axenfeld
              Assistant Inspector General for Audit

SUBJECT: 	     OIG Report 14-08, Agreed-Upon Procedures for Corporation for National and
               Community Service Grants Awarded to Nevada Volunteers (NV)


Attached is the final report for the above-noted engagement. This agreed-upon procedures
review was conducted by CliftonLarsonAllen LLP in accordance with attestation standards
established by the American Institute of Certified Public Accountants and Government Auditing
Standards, issued by the Comptroller General of the United States.

Under the Corporation's audit resolution policy, a final management decision on the findings and
recommendations in this report is due by November 24, 2014. Notice of final action is due by
May 25, 2015.

If you have questions pertaining to this report, please contact me at S.Axenfeld@cncsoig.gov ,
(202) 606-9360, or Rick Samson, Audit Manager, at R.Samson@cncsoig.gov, (202) 606-9380.

Attachment


cc: 	   Amber. Martin-Jahn, Executive Director, NV
        Stacy Woodbury, Commission Chair, NV
        Paul Townsend, Nevada Legislative Auditor
        Warren Lowman, Audit Manager, Nevada Division of Internal Audit
        David Rebich, Chief Financial Officer, CNCS
        Rhonda Honegger, Senior Grants Officer, CNCS
        Karen Gandolfo, Audit Resolution Specialist, CNCS
        Denise Wu, Principal, CliftonLarsonAllen LLP
                    AGREED-UPON PROCEDURES FOR CORPORATION GRANTS
	
                            AWARDED TO NEVADA VOLUNTEERS
	


                                            TABLE OF CONTENTS

                                                                                                                PAGE

EXECUTIVE SUMMARY ................................................................................................   1
	

INDEPENDENT ACCOUNTANT’S REPORT ..................................................................                   7
	

SCHEDULE A – CONSOLIDATED SCHEDULE OF CLAIMED AND
	
             QUESTIONED COSTS ......................................................................                 9
	

SCHEDULE B – SCHEDULE OF AWARD AND CLAIMED COSTS: 

             Nevada Volunteers............................................................................. 10
	

SCHEDULE C – SCHEDULE OF AWARD AND CLAIMED COSTS:
	
             The Children’s Cabinet ....................................................................... 12
	

SCHEDULE D – SCHEDULE OF AWARD AND CLAIMED COSTS:
	
             United Way of Southern Nevada ........................................................ 13
	

SCHEDULE E – SCHEDULE OF AWARD AND CLAIMED COSTS: 

             Great Basin Institute. .......................................................................... 14
	

SCHEDULE F –            DETAILED FINDINGS ....................................................................... 16
	

APPENDIX A:             NEVADA VOLUNTEERS RESPONSE TO DRAFT REPORT
	

APPENDIX B:             CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
	
                        RESPONSE TO DRAFT REPORT




                                                            i
	
                                  EXECUTIVE SUMMARY
	

The Corporation for National and Community Service (Corporation) Office of Inspector
General (OIG) contracted with CliftonLarsonAllen LLP, an independent certified public
accounting firm, to perform agreed-upon procedures (AUP) on grant costs incurred by the
Nevada Volunteers (NV) and three of its subgrantees. NV is the State Commission through
which AmeriCorps State grants are administered. NV also received State Administrative,
Program Development Assistance and Training (PDAT), and Disability (DISAB) grant funds
to support AmeriCorps State programs. CLA also tested NV’s compliance with Corporation
policies and applicable regulations for Corporation-funded Federal assistance. In addition to
reviewing NV’s administration of these grant funds, we selected the following NV
subgrantees for detailed testing:

     United Way of Southern Nevada (UWSN)
     The Children’s Cabinet (TCC)
     Great Basin Institute (GBI)

These subgrantees were judgmentally selected based on an assessment of overall risk to
NV and the Corporation. The assessment included consideration of several factors, namely
the amount of costs claimed by each subgrantee, the results of subgrantee monitoring
reports, and findings, if any, contained in Circular A-133 single audit reports for each entity.
Our procedures performed by CLA resulted in total questioned grant costs of $207,226,
consisting of $141,760 in Federal costs, NV subgrantee match costs of $44,673 and
education award costs of $20,793. CLA also identified eight instances of noncompliance
with the United States Code of Federal Regulations; the Corporation’s grant requirements,
and the subgrantees’ own policies and procedures or lack thereof.

CLA found that the three subgrantees are generally free of major financial weaknesses.
The questioned costs shown above are related primarily to deficiencies in the procedures
used to conduct criminal history and sex offender background checks, a pervasive
compliance finding affecting each of the subgrantees. Of the questioned $207,226 amount,
TCC’s Federal costs of $92,803, match costs of $18,416 and $11,100 in education awards
and UWSN’s questioned Federal costs of $40,874, match costs of $25,972 and $6,918 in
education awards represents about 95 percent of the total questioned costs. Further details
on each subgrantee’s claimed and questioned costs are at Schedules B, C, and D.
Compliance findings and recommendations are discussed in the Detailed Findings section
of this report beginning at page 16.

                          AGREED-UPON PROCEDURES SCOPE

We applied the agreed-upon procedures to the period January 1, 2011, through June 30,
2013. The procedures covered the allowability, allocability, and reasonableness of the
financial transactions reported for the following grants and periods:




                                               1
	
                                    Scope of Work

                       Active Amounts Awarded During AUP Period
	

                    Award No.                     Grant Periods
                  06AFHNV001           April 1, 2011 thru March 31, 2013
                  10CAHNV001       January 1, 2011 thru December 31, 2012
                  10CDHNV001         January 1, 2011 thru March 31, 2013
                  11PTHVN001            July 1, 2011 thru June 30, 2013
                  12ACHNV001         August 21, 2012 thru March 31, 2013
                  12FXHNV001       September 1, 2012 thru March 31, 2013
                  13CAHNV001          January 1, 2013 thru June 30, 2013

We also performed tests to determine NV’s and its selected subgrantees’ compliance with
certain grant terms and provisions. The procedures were based on the OIG’s “Agreed-Upon
Procedures for Corporation Awards to Grantees (including Subgrantees), dated August
2013.” We focused on NV and three of its subgrantees: UWSN, TCC, and GBI. We tested
NV transactions of $119,169. We also tested subgrantee transactions totaling $183,641 for
UWSN, $146,428 for TCC, and $167,373 for GBI.

                                       INTRODUCTION

The Corporation, under the authority of the National Community Service Trust Act of 1993
(as amended), awards grants and cooperative agreements to State commissions, nonprofit
entities, and tribes and territories to assist in the creation of full- and part-time national and
community service positions. AmeriCorps members perform service activities to meet
educational, human, environmental and public safety needs. In return, eligible members
may receive a living allowance and post-service education benefits.

Funds received by NV have been sub-awarded to eleven non-profits that provide services
towards recruiting, training and placing AmeriCorps members to meet critical community
needs in education, public safety, health, and the environment. Some examples of program
activities that AmeriCorps members have carried out with these grants are tutoring,
mentoring, addressing substance abuse, and energy/environmental conservation.
Subgrantees are required to provide matching funding as stipulated within their grant
agreements. The required match funding is based on the subgrantee’s budget narrative
submitted with the grant application and the match requirement varies amongst the
subgrantees.

                                        BACKGROUND

NV was previously the Nevada Commission on National and Community Service which was
originally established by Gubernatorial Executive Order in 1994. The Commission remained
a governmental entity until May of 1998, when it became a 501(c)(3) nonprofit corporation.
The responsibilities of the Commission were expanded and the organization voted in 2007
to change its name to NV to broaden the focus and bring more awareness to volunteerism in
Nevada. As part of its expanded mission, NV Volunteers seeks to fill the gaps in volunteer
recruitment and management.

Duties of NV includes statewide advocacy for community service, facilitation of volunteerism
and volunteer retention, promotion of ethics and civic responsibility, cultivation of



                                                2
	
communities to embrace a commitment to the quality of life for others, and administration of
policies of NV.

NV provided grants to eleven subgrantees during the period covered by this report. The
subgrantees used the funds to support their program operations and maintain supporting
documentation for the claimed costs. Subgrantees are required to provide quarterly or
semi-annual financial reports, as dictated in the sub-grant agreement, to NV by email. NV
prepares the aggregate FFR for the grants by accumulating the expenses reported by the
subgrantees and submits its FFR through the Corporation’s online eGrants system. The
Corporation and grantees use the online eGrants system to manage the grant process.
Grant applications, awards and FFRs are all processed through the eGrants system.

NV also monitors its subgrantees through a risk assessment process to develop a
monitoring plan for each sub-grantee based on certain risk factors. NV performs desk
audits and site visits. Programmatic site visits are conducted based on the risk assessment
and are done annually for each subgrantee. Financial review site visits are performed at
least once during the life of the sub-grant, but may be performed more frequently based on
the risk assessment. Desk audits are used as a follow-up tool for issues identified during
site visits. It is also used as a primary oversight tool for low-risk programs or used to
conduct “spot checks” to ensure proper documentation is being retained by the subgrantees.

UWSN had a total of 190 members and four employees charged to the grants. UWSN
received grants from NV to help provide long-term, sustainable change in Southern Nevada
in critical areas such as education, access to healthcare, affordable housing, and financial
stability. Members participated with disadvantaged youth through after-school programs
and literacy programs. The program also aided financially unstable adults through
counseling with no-cost tax preparation, as well as increase awareness of job training and
improves access to vaccinations and immunizations for all Nevadans. AmeriCorps
members with the United Way will serve agencies such as the Nye County School District,
Nye Communities Coalition, 100 Black Men of Las Vegas, and Communities in Schools of
Southern Nevada to help carry out assistance and support.

TCC had a total of 51 members and four employees charged to the grant. TCC was
awarded the sub-grant to help address the need of education support in northern Nevada.
The program focuses on expanding education support and tutoring for youth of all ages,
providing basic human needs to help communities develop services to uplift families out of
poverty to improve the quality of life for at-risk families and to increase volunteerism in
northern Nevada. Members provided educational support/tutoring, life skill training, sate
mentoring opportunities, positive youth development activities, and counseling services with
early childhood, elementary, middle, and high school children. Members were placed with
different organizations, such as the United Way of Northern Nevada, Big Brothers, Big
Sisters of Northern Nevada, and local school districts to help reach out to the targeted
individuals within the community.
GBI had a total of 322 members and 39 employees that were charged to the grants. GBI
had two grant programs: Clean Energy Corps and Nevada Conservations Corps.
The Clean Energy Corps used the grant to support GBI’s professional development
internship program. Through this program, members learned and provided services to
green agencies, focusing on improving energy efficiency, supporting the capacity of small
and struggling organizations, and providing direct support to parks and recreation areas.



                                             3
	
Members received extensive training to perform three phases of energy improvements for
low-income homeowners and small businesses. Within the Clean Energy Corps internship
program, members provided basic energy assessments to educate clients on their current
energy use as well as simple measures that can be taken to save and conserve energy.
Members also worked with clients to retrofit buildings to increase energy efficiency and
decrease energy costs. Members also spent time on common green efforts, including
reductions in energy consumption, community education on green initiatives, and helping to
“green” local events to reduce waste, increase recycling, and reduce energy consumption.

GBI’s Nevada Conservation Corps received a grant to support its internship program, which
promotes energy conservation and energy audit services and provides assistance through
direct conservation measures to reduce energy waste within Nevada residential and public
facility infrastructure. Program directives allow for training and orientation of members and
interns in various aspects of environmental conservation, including trail construction, arid
lands restoration, chainsaw operation, and first aid certification. The grant also supports its
week-long Leadership Academy program, where interns are taught topics such as conflict
management, advanced wilderness first aid, and team building skills, among other topics.

                                    EXIT CONFERENCE

We provided a summary of the findings to be included in the draft report and discussed its
contents with officials of the Corporation, NV, and applicable subgrantees at an exit
conference on February 25, 2014. Responsive comments to the draft report from NV and its
subgrantees will be included in the final report as appendices.

                                  SUMMARY OF RESULTS

The results of our agreed-upon procedures are summarized in the Consolidated Schedule of
Claimed and Questioned Costs (Schedule A).

NV claimed the following Federal and match costs:

     Grant No.        Federal        Match                        AUP Period
   06AFHNV001        $2,629,105    $1,718,276           April 1, 2011 to March 31, 2013
   10CAHNV001           485,488       185,845       January 1, 2011 to December 31, 2012
   12ACHNV001           269,187       758,160         August 21, 2012 to March 31, 2013
   10CDHNV001           119,906             -         January 1, 2011 to March 31, 2013
   13CAHNV001           100,000        73,594          January 1, 2013 to June 30, 2013
   11PTHNV001            70,627             -            July 1, 2011 to June 30, 2013

       Totals        $3,674,313    $2,735,875

Based on testing a judgmentally selected sample of transactions, CLA questioned claimed
costs as detailed in the following table:




                                              4
	
                                                             Federal         Match        Education          Totals
                                               1
             Type of Questioned Costs                         Share          Share         Award
     National Sex Offender Public Registry
     (NSOPR) search was not conducted until
     after employee/member started working
     on the grant                                            $ 88,900        $ 2,230          $       -     $ 91,130
     NSOPR search did not include
     nationwide results                                         20,990        13,848                  -        34,838
     State criminal registry search was not
     initiated before the employee/member
     started working on the grant                                  9,613      21,128           11,100          41,841
     State criminal registry search was not
     completed or documented                                       8,274        4,027             4,143        16,444
     Match requirement was not met                                 7,463            -                 -         7,463
     NSOPR search was not conducted
     based on the member’s legal name                              5,938        3,385             5,550        14,873
     Work was performed prior to the start of
     the grant                                                      582               -               -            582
     Cost was overstated in the General
     Ledger                                                        -              55               -              55
                                        Totals              $141,760         $44,673         $20,793        $207,226

Participants who successfully complete their AmeriCorps term of service are eligible for
education awards and, in some cases, accrued interest awards funded by the Corporation’s
National Service Trust. These award amounts are not funded by the Corporation grants
and, as a result, are not included in the claimed grant costs. However, when the grant
award is made, the education awards become obligations of the Corporation’s National
Service Trust. Therefore, as part of our AUP in applying the same criteria used for the
grantee’s claimed costs, CLA determined the effect of our findings on AmeriCorps members’
entitlement to education and accrued interest awards.
CLA questioned $20,793 in education awards because of the National Service Criminal
History Check issues that resulted in the members having insufficient hours to be eligible for
an award.
CLA compared NV’s inception-to-date drawdown amounts with the amounts reported in its
last Federal Financial Report (FFR)2 for the period tested and noted no discrepancies.
Details of the questioned costs, grant awards, non-compliance with grant provisions,
applicable laws and regulations are presented in the section of this report titled, Detailed
Findings (Schedule F) that follows the results of our agreed-upon procedures. The
compliance findings with no questioned cost are summarized below by category.




1
  A questioned cost is an alleged violation or non-compliance with grant terms and/or provisions of laws and regulations
governing the expenditures of funds; or a finding that, at the time of testing, adequate documentation supporting a cost item
was not readily available.
2
  The FFR is a standardized, consolidated report of Federal grant awards and associated Federal share and match costs
claimed which are required to be reported by grantees to the Corporation on a semi-annual basis.



                                                             5
	
National Service Criminal History Checks
    State criminal registry search was not authorized by the member.

Member Contract
   Member contract was not signed before the member started service.

Labor Cost/Payroll
    Date that the employee signed the timesheet was missing.

Other Direct Cost Testing
    The amount paid exceeded the approved purchase order amount;
    Purchase order was missing the date it was authorized; and
    Purchase order was not authorized timely.

Reporting
    Program income was not properly reported to NV in the Federal Financial Report,
       and
    Subgrantee’s quarterly Federal Financial Report was submitted late to NV.




                                           6
	
                                                                   CliftonLarsonAllen LLP
                                                                   www.claconnect.com




                      INDEPENDENT ACCOUNTANT’S REPORT
	
                     ON APPLYING AGREED-UPON PROCEDURES
	


Office of Inspector General
Corporation for National and Community Service


We have performed the procedures, detailed in the "Agreed‐Upon Procedures for
Corporation Awards to Grantees (including Subgrantees) dated August 2013," not included
herein. These procedures were agreed to by the Corporation for National and Community
Service (Corporation) Office of Inspector General (OIG) solely to assist the Corporation OIG
in evaluating certain information reported by Nevada Volunteers (NV) in accordance with its
Corporation grant terms and provisions, and applicable laws and regulations, for the AUP
periods from January 1, 2011 through June 30, 2013.

Grantee's Responsibility
NV and its sub-grantees are responsible for the accuracy and completeness of the reported
information. In addition, they are also responsible for the design and implementation of
programs and controls to prevent and detect fraud, and for informing us about all known or
suspected fraud or illegal acts affecting their entities involving (1) management, (2)
employees who have significant roles in internal control, and (3) others where the fraud or
illegal acts could have a material effect on the CNCS grants. Their responsibilities include
informing us of their knowledge of any allegations of fraud or suspected fraud affecting the
entity received in communications from employees, former employees, grantors, regulators,
or others. They are also responsible for identifying and ensuring that their entities comply
with applicable laws, regulations, contracts, and grant agreements, and for taking timely and
appropriate steps to remedy any fraud, illegal acts, violations of contracts or grant
agreements, or abuse that we may report.

Auditors’ Responsibility
We conducted the agreed-upon procedures engagement in accordance with attestation
standards established by the American Institute of Certified Public Accountants and the
standards for agreed-upon procedures contained in Government Auditing Standards, issued
by the Comptroller General of the United States. The sufficiency of the procedures,
described in the "Agreed‐Upon Procedures for Corporation Awards to Grantees (including
Subgrantees) dated August 2013," not included herein, is solely the responsibility of the
Corporation’s OIG. Consequently, we make no representation regarding the sufficiency of
the procedures either for the purpose for which this report has been requested, or for any
other purpose.

The results of our procedures are described in the Detailed Findings section of this report.

The agreed‐upon procedures listed in the "Agreed‐Upon Procedures for Corporation Awards
to Grantees (including Subgrantees) dated August 2013," not included herein, do not
constitute an examination or review, the objective of which would be the expression of an


                                              7
	
                    INDEPENDENT ACCOUNTANT’S REPORT
	
             ON APPLYING AGREED-UPON PROCEDURES (CONTINUED)
	

opinion on NV’s reported grant information. Accordingly, we do not express such an opinion
or limited assurance on the amount of Federal assistance expended by NV. Had we
performed additional procedures, other matters might have come to our attention that would
have been reported to you.

This report is intended solely for the information and use of the OIG, the Corporation, and
NV, and should not be used by anyone other than these specified parties.




Calverton, Maryland
	
February 25, 2014
	




                                            8
	
                                                                                                      Schedule A
                         Corporation for National and Community Service 

                                       Nevada Volunteers
	
                      Consolidated Schedule of Claimed and Questioned Costs
	

                                                   Claimed                       Questioned Cost
                                     Approved       Federal       Federal           Match          Education
 Award No.           Program          Budget         Cost         Cost (a)          Cost (b)       Awards (c)       Schedule

10CAHNV001           ADMIN            $ 742,500    $ 485,488       $         -       $         -     $          -      B

13CAHNV001           ADMIN              192,988      100,000                 -                 -                -      B

11PTHNV001            PDAT              102,933       70,627                 -                 -                -      B

10CDHNV001           DISAB              178,533      119,906                 -                 -                -      B

12FXHNV001       Fixed State            349,020               -              -                 -                -      B


               The Children’s
06AFHNV001        Cabinet                                              92,803            18,416          11,100        C
               United Way of
06AFHNV001    Southern Nevada                                          40,874            25,972           6,918        D
                Great Basin
06AFHNV001        Institute                                             8,045                  -                -      E
                AmeriCorps
06AFHNV001     Formula Total           6,550,689    2,629,105      141,722               44,388          18,018


                Great Basin
12ACHNV001       Institute                                                38               285            2,775        E
                AmeriCorps
12ACHNV001    Competitive Total         613,695      269,187              38               285            2,775


             Total                    $8,730,358   $3,674,313     $141,760           $44,673          $20,793
                               Total Questioned Costs (a+b+c)                       $207,226




                                                      9
	
                                                                                    Schedule B
                           Schedule of Award and Claimed Costs
	
                   For Period January 1, 2011, through December 31, 2012

                             Nevada Volunteers – 10CAHNV001
	

                                                                                        Reference
Authorized Budget (Corporation Funds)		                                  $742,500        Note 1

Claimed Federal Costs		                                                  $485,488        Note 2

Authorized Match Budget 	                                                $265,845        Note 3

Claimed Match Costs		                                                    $185,845        Note 4

Questioned Federal Costs:                                          -
              Total Questioned Federal Costs                              $         -

Questioned Match Costs:                                            -
              Total Questioned Match Costs                                $         -

 Notes

 1.		 The authorized budget amount represents the funding to NV according to the Notice of
      Grant Award.
 2.		 Claimed costs represent NV’s reported Federal expenditures for the period January 1,
      2011 through December 31, 2012.
 3.		 The authorized match budget represents NV’s funding in accordance with the Budget
      Narrative.
 4.		 Claimed match costs represent NV’s’ reported match expenditures for the period January
      1, 2011, through December 31, 2012.


                             Schedule of Award and Claimed Costs
	
                        For Period January 1, 2013, through June 30, 2013
	
                                Nevada Volunteers – 13CAHNV001
	

                                                                                        Reference
Authorized Budget (Corporation Funds)		                                  $192,988        Note 1

Claimed Federal Costs		                                                  $100,000        Note 2

Authorized Match Budget 	                                                $162,500        Note 3

Claimed Match Costs		                                                         $73,594    Note 4

Questioned Federal Costs:                                          -
              Total Questioned Federal Costs                              $         -

Questioned Match Costs:                                            -
              Total Questioned Match Costs                                $         -




                                               10
	
Notes

1.		 The authorized budget amount represents the funding to NV according to the Notice of
     Grant Award.
2.		 Claimed costs represent NV’s reported Federal expenditures for the period January 1,
     2013 through June 30, 2013.
3.		 The authorized match budget represents NV’s funding in accordance with the Budget
     Narrative.
4.		 Claimed match costs represent NV’s reported match expenditures for the period January
     1, 2013, through June 30, 2013.


                              Schedule of Award and Claimed Costs
	
                          For Period July 1, 2011, through June 30, 2013
	
                                Nevada Volunteers – 11PTHNV001
	
                                                                                           Reference
Authorized Budget (Corporation Funds)		                                      $102,933       Note 1

Claimed Federal Costs		                                                          $70,627     Note 2

Questioned Federal Costs:                                              -
             Total Questioned Federal Costs                                  $         -

Notes

1.		 The authorized budget amount represents the funding to NV according to the Notice of
     Grant Award.
2.		 Claimed costs represent NV’s reported Federal expenditures for the period January 1,
     2013 through June 30, 2013.


                           Schedule of Award and Claimed Costs
	
                     For Period January 1, 2011, through March 31, 2013

                             Nevada Volunteers – 10CDHNV001
	
                                                                                           Reference
Authorized Budget (Corporation Funds)		                                    $178,533         Note 1

Claimed Federal Costs		                                                    $119,906         Note 2

Questioned Federal Costs:                                          -
             Total Questioned Federal Costs                                  $        -

Notes

1.		 The authorized budget amount represents the funding to NV according to the Notice of
     Grant Award.
2.		 Claimed costs represent NV’s reported Federal expenditures for the period January 1,
     2011 through March 31, 2013.




                                                11
	
                                                                                     Schedule C
                           Schedule of Award and Claimed Costs
                           The Children’s Cabinet – 06AFHNV001
                      AUP Period - April 1, 2011 through March 31, 2013

                                                                                     Reference
  Authorized Budget (Federal Funds)                                       $860,083    Note 1
  Authorized Match Budget                                                 $467,379    Note 2

  Questioned Federal Costs:
  NSOPR search was conducted after the                                                Note 3
   employee/member started working on the grant                  86,119
  NSOPR search conducted was not based on the                                         Note 4
   member’s legal name                                            5,938
  NSOPR search did not include nationwide results                   746               Note 5
             Total Questioned Federal Costs                                $92,803

  Questioned Match Costs:
  State criminal registry search was not initiated until after
    the employee/member started working on the grant             14,505               Note 6
  NSOPR search was conducted after the
    employee/member started working on the grant                   105                Note 3
  NSOPR search conducted was not based on the
    member’s legal name                                           3,385               Note 4
  NSOPR search did not include nationwide results                   421               Note 5
               Total Questioned Match Costs                                $18,416

  Questioned Education Awards:
  NSOPR search conducted was not based on the
    member’s legal name                                           5,550               Note 4
  State criminal registry search was not initiated until after
    the employee/member started working on the grant              5,550               Note 6
               Total Questioned Education Awards                           $11,100

Notes
1.		 The authorized budget amount represents the Federal funding to TCC in accordance with
     the subgrant agreement.
2.		 The authorized match budget represents TCC’s funding to be provided in accordance with
     the subgrant agreement.
3.		 Federal costs of $86,119, match costs of $105 were questioned due to the NSOPR
     search being conducted after the employee/member started working on the grant (See
     Finding 1).
4.		 Federal costs of $5,938, match costs of $3,385 and an education award of $5,550 were
     questioned due to the NSOPR search not being conducted based on the member’s legal
     name (See Finding 1).
5.		 Federal costs of $746 and match costs of $421 were questioned because the NSOPR
     search did not include nationwide results (See Finding 1).
6.		 Match costs of $14,505 and an education award of $5,550 was questioned due to the
     State criminal registry search not being initiated before the employee/member started
     working on the grant (See Finding 2).




                                                    12
	
                                                                                  Schedule D
                          Schedule of Award and Claimed Costs:
	
                      United Way of Southern Nevada – 06AFHNV001

                     AUP Period - April 1, 2011 through March 31, 2013
	

                                                                                  Reference
  Authorized Budget (Federal Funds)                                  $1,246,588    Note 1
  Authorized Match Budget                                             $899,696     Note 2

  Questioned Federal Costs:
  NSOPR search did not include nationwide results.          20,244                 Note 3
  State criminal registry search was not initiated before
    the employee/member started working on the grant         9,575                 Note 4
  State criminal registry search was not completed or
    documented                                               8,274                 Note 5
  NSOPR search was conducted after the
    employee/member started working on the grant             2,781                 Note 6
              Total Questioned Federal Costs                           $40,874

  Questioned Match Costs:
  NSOPR search did not include nationwide results.          13,427                 Note 3
  State criminal registry search was not initiated before
    the employee/member started working on the grant         6,393                 Note 4
  State criminal registry search was not completed or
    documented                                               4,027                 Note 5
  NSOPR search was conducted after the
    employee/member started working on the grant             2,125                 Note 6
               Total Questioned Match Costs                            $25,972

  Questioned Education Awards:
  State criminal registry search was not completed or
    documented                                               4,143                 Note 5
  State criminal registry search was not initiated before
    the employee/member started working on the grant         2,775                 Note 4
               Total Questioned Education Awards                        $6,918

Notes
1.		 The authorized budget amount represents the Federal funding to UWSN in accordance
     with the subgrant agreement.
2.		 The authorized match budget represents the UWSN funding to be provided in accordance
     with the subgrant agreement.
3.		 Federal costs of $20,244 and $13,427 in match costs were questioned because the
     NSOPR search did not include nationwide results (See Finding 1).
4.		 Federal costs of $9,575, match costs of $6,393 and an education award of $2,775 were
     questioned because State criminal registry search was not initiated before the employee/
     member started working on the grant (See Finding 2).
5.		 Federal costs of $8,274, match costs of $4,027 and education awards of $4,143 were
     questioned because State criminal registry search was not completed or documented
     (See Finding 2).
6.		 Federal costs of $2,781 and $2,125 in match costs were questioned due to the NSOPR
     search was conducted after the employee/member started working on the grant (See
     Finding 1).




                                                  13
	
                                                                                    Schedule E
                          Schedule of Award and Claimed Costs:
	
                           Great Basin Institute – 06AFHNV001
	
                      AUP Period April 1, 2011, through March 31, 2012 


                                                                                     Reference
Authorized Budget (Federal Funds)                                     $271,926        Note 1
Authorized Match Budget                                               $275,990        Note 2

Questioned Federal Costs:
 Match requirement was not met                                7,463                    Note 3

 Invoice was for work performed prior to start of the grant    582                     Note 4
              Total Questioned Federal Costs                               $8,045

Notes
1.		 The authorized budget amount represents the Federal funding to GBI in accordance with
     the subgrant agreement.
2.		 The authorized match budget represents the GBI funding to be provided in accordance
     with the subgrant agreement.
3.		 Federal costs of $7,463 were questioned because the match requirement was not met
     (See Finding 3).
4.		 Federal costs of $582 were questioned because the invoice was for work performed prior
     to the start of the grant (See Finding 4).




                                                   14
	
                          Schedule of Award and Claimed Costs:
	
                            Great Basin Institute – 12ACHNV001
	
                     AUP Period August 21, 2012, through March 31, 2013
	

                                                                                    Reference
Authorized Budget (Federal Funds)                                       $613,695     Note 1
Authorized Match Budget                                                $1,863,910    Note 2

Questioned Federal Costs:
State criminal registry search was not initiated before the
  employee/member started working on the grant                    38                 Note 3
                Total Questioned Federal Costs                               $38

Questioned Match Costs:
State criminal registry search was not initiated before the
  employee/member started working on the grant                  230                  Note 3
  Invoice cost was overstated in the general ledger              55                  Note 4
                 Total Questioned Match Costs		                             $285

Questioned Education Awards:
State criminal registry search was not initiated before the
  employee/member started working on the grant                 2,775                 Note 3
                 Total Questioned Education Awards                        $2,775

Notes
1.		 The authorized budget amount represents the Federal funding to GBI in accordance with
     the subgrant agreement.
2.		 The authorized match budget represents GBI funding to be provided in accordance with
     the subgrant agreement.
3.		 Federal costs of $38, match costs of $230 in match costs and an education award of
     $2,775 were questioned due to the State criminal registry search not initiated before the
     employee/member started working on the grant (See Finding 2).
4.		 Match costs of $55 were questioned because the invoice cost was overstated in the
     general ledger (See Finding 4).




                                                    15
	
                                                                              Schedule F
                                     Detailed Findings

Finding 1 – National Sex Offender Public Registry Search Findings

We reviewed various samples of subgrantees’ employee and member files to verify that the
National Sex Offender Public Registry (NSOPR) search was conducted and documented
before the employee/member started working on the grant. The samples reviewed are noted
in the following table:

        Grant No.      Subgrantee     No. Employees Tested    No. Members Tested
      06AFHNV001          TCC                  2                     17
      06AFHNV001         UWSN                  4                     25
      06AFHNV001          GBI                  1                      7
      12ACHNV001          GBI                  5                     18
                         Totals                12                    67

Based on our testing, we had the following exceptions:

a.		 National Sex Offender Public Registry Search Was Not Conducted Until After The
     Employee/Member Started Working On The Grant

   For one of the four employee files tested and eight of the 25 member files tested, UWSN
   conducted the NSOPR search after the employee/member started working on the grant.
   For TCC, two of the two employee files and eight of the 17 member files tested had late
   NSOPR searches. UWSN and TCC did not have controls in place to ensure that the
   NSOPR search was completed prior to the employee/member starting to work on the
   grant.

   In October 2011, the Corporation issued a memorandum to grantees regarding the
   enforcement of the criminal history check compliance and the potential consequences for
   non-compliance. As a result, we are questioning costs starting from November 1, 2011 or
   the date in which the employee/member started working on the grant, whichever is later,
   through the day prior to when the NSOPR search was actually completed.

                                Grant No. 06AFHNV001
                         Employee or           Questioned
                         Member No.        Federal     Match
                       UWSN
                       Employee 4α            $    -     $    -
                       Member 9^                   -          -
                       Member 12               1,860      1,411
                       Member 13¥                  -          -
                       Member 20¥                 -          -
                       Member 22                 921        714
                       Member 23¥                  -          -
                       Member 24¥                  -          -
                       Member 25¥                  -          -
                            UWSN Total        $2,781    $2,125



                                             16
	
                       TCC
                       Employee 1α                     -            -
                       Employee 2                 85,933            -
                       Member 1¥                       -            -
                       Member 2¥                       -            -
                       Member 4¥                       -            -
                       Member 5¥                       -            -
                       Member 8                      186          105
                       Member 11¥                      -            -
                       Member 12¥                      -            -
                       Member 17¥                      -            -
                              TCC Total          $86,119        $105
                       Total Questioned          $88,900       $2,230

   ^ Costs were questioned in finding 1b.
	
   α Costs were questioned in finding 2a.
	
   ¥ Compliance issue since it occurred prior to the Corporation’s issuance of the 

     enforcement memorandum.

   For grant No. 06AFHNV001, we questioned $2,781 in Federal and $2,125 in match costs
   for UWSN. We also questioned $86,119 in Federal and $105 in match costs for TCC.

b. National Sex Offender Public Registry Search Did Not Include Nationwide Results

   For one of the four employee files tested and seven of the 25 member files tested,
   UWSN’s NSOPR searches did not include nationwide results. For TCC, two of the 17
   member files tested did not include nationwide results. UWSN and TCC did not have
   controls in place to ensure that the NSOPR search was complete in providing nationwide
   results. As a result of this finding some of the NSOPR searches were redone to provide
   nationwide results. We are questioning costs starting from November 1, 2011 or the date
   in which the employee/member started working on the grant, whichever is later, through
   the day prior to when the NSOPR search was redone to provide nationwide results or
   through March 31, 2013, which is the end of the AUP period. Living allowances are not
   an hourly wage and must be distributed at regular intervals and at consistent amounts.
   No member living allowance was questioned for any pay period where the member had
   any unquestioned hours of service.

                                Grant No. 06AFHNV001
                         Employee or           Questioned
                         Member No.        Federal     Match
                       UWSN
                       Employee 1            $12,350     $7,818
                       Member 3¥                   -          -
                       Member 9                4,878      3,310
                       Member 13¥                  -          -
                       Member 17¥                 -          -
                       Member 20               3,016      2,299
                       Member 22α                  -          -
                       Member 23¥                  -          -
                            UWSN Total       $20,244    $13,427


                                             17
	
                        TCC
                        Member 2¥                       -            -
                        Member 3                      746          421
                               TCC Total            $746         $421
                        Total Questioned          $20,990      $13,848

   ¥ Compliance issue since it occurred prior to the Corporation’s issuance of the 

     enforcement memorandum.
	
   α Costs were questioned in finding 1a.

   For grant No. 06AFHNV001, we questioned $20,244 in Federal and $13,427 in match
   costs for UWSN. We also questioned $746 in Federal and $421 in match costs for TCC.

c.		 National Sex Offender Public Registry Search Was Not Conducted Based On The
     Member’s Current Legal Name

   For one of the 17 member files tested, TCC performed an NSOPR search based on the
   member’s maiden name, and did not perform a search based on her current legal name.
   TCC conducted the search based on the member’s signature on the government-issued
   photo identification cards provided by the member instead of the actual legal name that
   was on those cards, which was the member’s married name. As a result, we are
   questioning costs starting from the date the member started working on the grant through
   March 31, 2013, which is the end of the AUP period.

                                   Grant No. 06AFHNV001
                                                   Questioned
               Member No.             Federal     Match     Education Award
               Member 16                 $5,938    $3,385             $5,550

   For grant No. 06AFHNV001, we questioned $5,938 in Federal, $3,385 in match costs and
   $5,550 in education award for TCC.

By not properly performing the NSOPR search, the subgrantee placed itself, NV, the
Corporation and the population that it serves at risk.

Criteria

45 Code of Federal Regulations (C.F.R.) §2540.200 (October 2010, 2011 and 2012) states:

       You must apply suitability criteria relating to criminal history to an individual
       applying for, or serving in, a position for which an individual receives a
       Corporation grant-funded living allowance, stipend, education award, salary,
       or other remuneration.

45 C.F.R. §2540.202 (October 2010, 2011 and 2012) states:
       Unless the Corporation approves an alternative screening protocol, in
       determining an individual's suitability to serve in a covered position, you are
       responsible for conducting and documenting a National Service Criminal



                                              18
	
       History Check, which consists of the following two search components: a)
       State criminal registry search. A search (by name or fingerprint) of the State
       criminal registry for the State in which your program operates and the State in
       which the individual resides at the time of application; and b) National Sex
       Offender Public Registry. A name-based search of the Department of Justice
       (DOJ) National Sex Offender Public Registry (NSOPR).

45 C.F.R. §2540.201 (October 2010, 2011 and 2012) states:

       An individual is ineligible to serve in a covered position if the individual: (a) Is
       registered, or required to be registered, on a State sex offender registry or the
       National Sex Offender Registry; or (b) Has been convicted of murder, as
       defined in section 1111 of title 18, United States Code.

45 C.F.R. §2540.205 (October 2010, 2011 and 2012) states:

       You must: (a) Document in writing that you verified the identity of the
       individual in the covered position by examining the individual’s government-
       issued photo identification card, and that you conducted the required checks
       for the covered position; and (b) Maintain the results of the National Service
       Criminal History Check (unless precluded by State law) and document in
       writing that you considered the results in selecting the individual.

National Service Criminal History Check Frequently Asked Questions – Updated November
30, 2012, Section 4 National Sex Offender Public Website, 4.7 What steps should I take if I
discover that States’ sex offender registry sites are inoperative when I am conducting the
NSOPW check on an applicant?, states:

       You are required to perform the National Sex Offender Public Website
       (NSOPW) check until all State registries are cleared. The result will indicate
       whether or not any individual State systems were inoperable during that
       search. If the check was less than complete, you must re-check the NSOPW
       before the individual starts service to rule out the possibility that the applicant
       may be registered in the State(s) system(s) that was not connected to the
       NSOPW system when you performed the first check. You may supplement
       the first NSOPW check by checking the State registries that are down. You
       should pay special attention to the applicant’s state of residence and state of
       service. Individuals cannot begin serving under the grant until the NSOPW is
       completed.

Recommendations:

We recommend that the Corporation:

1a.   Resolve and recover the questioned Federal costs of $92,803, match costs of $3,911
      and an education award of $5,550 relating to TCC for grant No. 06AFHNV001.

1b.   Resolve and recover the questioned Federal costs of $23,025 and match costs of
      $15,552 relating to UWSN for grant No. 06AFHNV001.




                                                19
	
1c.		 Ensure that NV strengthens the monitoring of its subgrantees to make certain that
      subgrantees are performing and documenting the NSOPR search prior to the
      employee/member starting to work on the grant, includes nationwide results and is
      based on the employee’s/member’s legal name.

NV Response:

NV concurs with finding 1a; however, it indicated that it had already taken corrective action for
UWSN members No. 12 and 22 and TCC member No. 8 by disallowing service hours prior to
NSOPR being completed. NV also stated that member No. 8 had allowable hours served
after the NSOPR was conducted and that the member should receive the full amount of the
living allowance for any hours served. NV also indicated that it eventually conducted all
criminal history checks required for TCC employee No. 2.

NV concurs with finding 1b. However, it indicated that the costs should not be questioned
because UWSN and TCC took corrective action prior to the audit.

NV concurs with finding 1c. However, NV believes that TCC operated in good faith to conduct
all required National Service History check components on the legal name as provided by the
member. NV believes that the questioned costs are punitive when the program completed all
tasks in good faith and took corrective action showing the member was still eligible after
completing an NSOPR under the member’s full legal name.

Auditor’s Comments:

For finding 1a, UWSN did not provide any evidence that the service hours incurred and the
applicable living allowance and benefits for UWSN members No. 12 and 22 prior to the
NSOPR search being completed were disallowed by NV. In fact, the NSOPR search for
member No. 22 was not fully documented until after the member had already exited, which is
the basis for the entire questioned cost for that member. Therefore it is not exactly clear how
UWSN took corrective action.

For TCC member No. 8, we questioned the first living allowance and benefits paid on
January 25, 2013, which covered the period ending January 18, 2013. The NSOPR was not
conducted until February 1, 2013, so the full amount of the initial payment was questioned.
TCC did not provide any evidence that the service hours incurred and the applicable living
allowance and benefits prior the NSOPR search being completed were disallowed by NV.

The Corporation should follow-up with NV during audit resolution to ensure that the corrective
action implemented by NV is effective and resolve the questioned costs.


Finding 2 – State Criminal Registry Search Findings

We reviewed various samples of subgrantees’ employee and member files to verify that the
State Criminal Registry search was initiated before the employee/member started working on
the grant and it was documented. The samples reviewed are noted in the following table:




                                               20
	
      Grant No.        Subgrantee     No. Employees Tested      No. Members Tested
    06AFHNV001            TCC                   2                      17
    06AFHNV001           UWSN                   4                      25
    06AFHNV001            GBI                   1                       7
    12ACHNV001            GBI                   5                      18
                         Totals                12                      67

Based on our testing, we had the following exceptions:

a.		 State Criminal Registry Search Was Not Initiated Before The Employee/Member
     Started Working On The Grant

   For four of the four employee files tested and nine of the 25 member files tested, UWSN
   did not conduct the State Criminal Registry search prior to the employee/member started
   working on the grant. For TCC, it was one of two employee files tested and six of the 17
   member files tested. For GBI, it was two of the 18 member files tested (grant No.
   12ACHNV001). The late state criminal registry search was based on the date when the
   employee/member’s finger prints were submitted to initiate the search. We considered
   the State Criminal Registry search to be initiated once the employee/member submits
   them to the subgrantee or to the appropriate entity to be processed. The subgrantees did
   not have controls in place to ensure that the State Criminal Registry searches were
   initiated prior to their employees and members starting to work on the grant.

   In October 2011, the Corporation issued a memorandum to grantees regarding the
   enforcement of the criminal history check compliance and the potential consequences for
   non-compliance. As a result, we are questioning costs starting from November 1, 2011 or
   the date in which the employee/member started working on the grant, whichever is later,
   through the day prior to when the State Criminal Registry search was actually initiated.

                                  Grant No. 06AFHNV001
              Employee or                        Questioned
              Member No.           Federal      Match     Education Award
            UWSN
            Employee 1^               $    -        $    -         N/A
            Employee 2¥                    -             -         N/A
            Employee 3¥                    -             -         N/A
            Employee 4                 7,778         4,923         N/A
            Member 2₣                      -             -         N/A
            Member 9^                      -             -         N/A
            Member 10₣                     -             -         N/A
            Member 13¥                    -             -         N/A
            Member 14                    223           185         N/A
            Member 18                  1,574         1,285                2,775
            Member 22^                     -             -         N/A
            Member 23¥                     -             -         N/A
            Member 24¥                     -             -         N/A
                 UWSN Total           $9,575        $6,393               $2,775
            TCC
            Employee 1                      -       14,505         N/A
            Member 2¥                       -            -         N/A


                                             21
	
                                Grant No. 06AFHNV001
             Employee or                       Questioned
             Member No.          Federal      Match     Education Award
           TCC
           Member 4¥                      -         -              N/A
           Member 7£                      -         -                     5,550
           Member 11¥                     -         -              N/A
           Member 12¥                     -         -              N/A
           Member 17¥                     -         -              N/A
                  TCC Total        $      -   $14,505                    $5,550
                Total                $9,575   $20,898                    $8,225
                                Grant No. 12ACHNV001
           GBI
             Member No.           Federal         Match     Education Award
           Member 3                     38            230              2,775
           Member 7₣                      -             -         N/A
                 Total                 $38           $230             $2,775
           Total Questioned         $9,613        $21,128            $11,100

   ^ Costs were questioned in finding 1b.
   ¥ Compliance issue since it occurred prior to the Corporation’s issuance of the
     enforcement memorandum.
   ₣ No member living allowance was questioned because the member still had valid service
     hours in the pay period that was being questioned. The member did not receive an
     education award or still had sufficient hours to receive an education award.
   £ Questioned service hours, which resulted in the member having insufficient service
     hours for the education award.

   For grant No. 06AFHNV001, we questioned $9,575 in Federal and $6,393 in match costs,
   along with $2,775 in education award for UWSN. We also questioned $14,505 in match
   costs and $5,550 in education award due to the questioned member service hours for
   TCC. For grant No. 12ACHNV001, we questioned $38 in Federal and $230 in match
   costs, along with $2,775 in education award due to questioned member service hours for
   GBI.

b. State Criminal Registry Search Results Were Not Completed or Documented

   For two of the 25 member files tested, UWSN did not have documentation of the results
   from the State Criminal Registry search. UWSN did not have controls in place to ensure
   that the State Criminal Registry search results were documented and maintained.

   In October 2011, the Corporation issued a memorandum to grantees regarding the
   enforcement of the criminal history check compliance and the potential consequences for
   non-compliance. As a result, we are questioning costs starting from November 1, 2011 or
   the date in which the employee/member started working on the grant, whichever is later,
   through the day prior to when the State Criminal Registry search was actually initiated.




                                           22
	
                                   Grant No. 06AFHNV001
                                                Questioned
                Member No.         Federal     Match     Education Award
                   4                 $6,614     $3,250             $2,675
                   16                 1,660        777              1,468
                   Totals            $8,274     $4,027             $4,143

   For grant No. 06AFHNV001, we questioned $8,274 in Federal and $4,027 in match costs,
   along with $4,143 in education awards for UWSN.

c. State Criminal Registry Search Was Not Authorized By The Member

   For eight of the 17 member files tested, TCC did not obtain signed and dated
   authorizations from the members to perform the State Criminal Registry searches. TCC
   did not have controls in place to ensure that a written authorization is obtained from the
   member prior to conducting the State Criminal Registry search.

   By not ensuring that State Criminal Registry searches are properly initiated and results
   are documented, the subgrantees placed themselves, NV, the Corporation and the
   population that they serve at risk. By not obtaining a written authorization from the
   member prior to conducting a State Criminal Registry search, the subgrantee has placed
   itself at risk of potential legal action, which could include NV and the Corporation.

Criteria

45 Code of Federal Regulations (C.F.R.) §2540.200 (October 2010, 2011 and 2012) states:

       You must apply suitability criteria relating to criminal history to an individual
       applying for, or serving in, a position for which an individual receives a
       Corporation grant-funded living allowance, stipend, education award, salary,
       or other remuneration.

45 C.F.R. §2540.202 (October 2010, 2011 and 2012) states:

       Unless the Corporation approves an alternative screening protocol, in
       determining an individual's suitability to serve in a covered position, you are
       responsible for conducting and documenting a National Service Criminal
       History Check, which consists of the following two search components: a)
       State criminal registry search. A search (by name or fingerprint) of the State
       criminal registry for the State in which your program operates and the State in
       which the individual resides at the time of application; and b) National Sex
       Offender Public Registry. A name-based search of the Department of Justice
       (DOJ) National Sex Offender Public Registry (NSOPR).”

45 C.F.R. §2540.201(October 2010, 2011 and 2012) states:

       An individual is ineligible to serve in a covered position if the individual: (a) Is
       registered, or required to be registered, on a State sex offender registry or the
       National Sex Offender Registry; or (b) Has been convicted of murder, as
       defined in section 1111 of title 18, United States Code.



                                                23
	
45 C.F.R. §2540.204(b) (October 2010, 2011 and 2012) states:

       Obtain prior, written authorization for the State criminal registry check and the
       appropriate sharing of the results of that check within the program from the
       individual.

Recommendations:

We recommend that the Corporation:

2a.		 Resolve and recover the questioned Federal costs of $17,849, match costs of $10,420
      and education awards of $6,918 relating to UWSN for grant No. 06AFHNV001.

2b.		 Resolve and recover the questioned match costs of $14,505 and an education award of
      $5,550 relating to TCC for grant No. 06AFHNV001.

2c.		 Resolve and recover the questioned Federal costs of $ 38, match costs of $230 and an
      education award of $2,775 relating to GBI for grant No. 12ACHNV001.

2d.		 Ensure that NV strengthens the monitoring to make certain that subgrantees are
      performing State criminal registry searches in accordance with Federal regulations and
      grant provisions so that:
         Written authorization is obtained from the employee/member prior to conducting
            the State criminal registry search; and
         State criminal history searches are initiated prior to the employee/member starting
            to work on the grant, and searches are documented and maintained.

NV Response:

NV concurs with finding 2a for UWSN employee No. 4 and TCC employee No. 1. NV does
not concur with the questioned costs for UWSN employee No.4 because they obtained a
letter from the previous AmeriCorps Program Director for UWSN certifying that the National
Service Criminal History Check was performed on the employee and there were no results.
NV will work to resolve those costs with the Corporation. NV does not concur with the finding
2a as it relates to UWSN members No. 14 and 18 and GBI member No. 3. NV indicated that
there was documentation of UWSN’s authorization for electronic submission of the
fingerprints by the vendor that was provided to member No. 14 and 18 the day they were sent
to get their fingerprints and that served as the initiation of the State Criminal Registry search.
For GBI member No. 3, GBI indicated that it had a formalized process involving an email
communication to the member with instructions for completion of the National Service
Criminal History Check prior to arriving for pre-orientation, which served as the initiation of the
State Criminal Registry search.

NV concurs with finding 2b and 2c, but not the questioned costs related to finding 2b. NV
stated that UWSN has conducted significant follow-up with the repository and members to re-
run checks to obtain results because the original results could no longer be provided due to
repository records retention rules. NV will provide the additional documentation to the
Corporation




                                                24
	
Auditor’s Comments:

As indicated in the finding, we do not consider State Criminal Registry search initiated until
the fingerprints are submitted by the member or employee since the search cannot
commence until this is done. In regards to GBI specifically, its own internal procedures state
that, “As of October 1, 2009 all AmeriCorps members are required to submit fingerprint cards
to the Great Basin Institute prior to starting a position with our organization.” Those
procedures were not followed. The subgrantees are required to have documentation of the
National Service Criminal History Check on file at the time of our review. The Corporation
should follow-up with NV during audit resolution to ensure that the corrective action
implemented by NV is effective and resolve the questioned costs.


Finding 3 – Subgrantee Match Requirement Was Not Met

GBI did not meet its match requirement for grant No. 06AFHNV001, which required a 50
percent contribution of the total grant costs. It was determined from GBI’s final Nevada
Expense Report Form (NERF) and Federal Financial Report submitted to NV that GBI did not
report the full indirect match cost that it was entitled to under the grant agreement. The grant
agreement allowed for 10 percent of the total direct costs incurred as the match indirect cost
rate. GBI incurred a total of $436,629 in direct costs, so it was entitled to $43,663 in indirect
match costs. GBI only reported $9,696 in indirect match costs, so it under reported the
indirect match cost by $33,967. After allowing for the under reported indirect match costs, it
was determined that GBI did not meet its match requirement by $7,463 as shown in the
following table:

    Total Reported Corporation Federal Cost Claimed                  249,785        A
    Total GBI Match Costs Actually Claimed                           208,355        B
    Match Cost Short of the Match Requirement                         41,430      C=A–B
    Under Reported Indirect Match Costs                               33,967        D
    Adjusted Match Cost Short of the Match Requirement                 7,463       C–D

GBI did not meet its matching requirement for the grant. As a result, we are questioning
$7,463 in Federal cost incurred for grant No. 06AFHNV001 for which there was no associated
match cost.

Criteria

GBI’s budget narrative submitted with grant application No. 10AC127140 to NV, which is part
of the sub-grant agreement, shows that GBI’s share of the administrative costs under Section
III is comprised of 10 percent of the total direct costs of Sections I and II. In addition, it also
shows that GBI’s match cost share will be 50 percent of the total grant cost.




                                                25
	
Recommendation:

We recommend that the Corporation:

3a.		 Resolve and recover the questioned Federal costs of $7,463 related to GBI for grant No.
      06AFHNV001.

3b.		 Ensure that NV strengthens the monitoring of its subgrantees so that subgrantees are
      meeting their match requirements in accordance with their sub-grant agreement.

NV Response:
NV concurs with the finding that GBI did not meet its matching requirements on the FFR
submitted to NV on April 16, 2012. However, NV stated that the FFR was incorrect and does
not reflect the actual match cost incurred by GBI. NV indicated that GBI has submitted
documentation of additional in-kind match and an approved, but not applied, indirect cost rate
agreement from the U.S. Department of the Interior (DOI) to document additional match cost.

Auditor’s Comments:

The final FFR that GBI submitted showed that GBI did not meet its matching requirement. At
the time of our review, GBI had not informed NV that it had additional in-kind match and a
different federally approved indirect cost rate that was not applied. In addition, there was an
indirect cost rate already agreed to in the subgrantee agreement. The Corporation should
review GBI’s support for the additional match cost incurred and the indirect cost rate
approved by DOI to determine whether the additional match cost should be allowed.


Finding 4 – Costs Recorded Incorrectly

We selected a representative sample of 10 transactions for each grant and program year for
Federal and also for match costs reported during the AUP period. For UWSN, under the
three year grant 06AFHNV001, this resulted in a total of 30 transactions tested (applied to
both Federal and match). For GBI there was only one program year for each grant. We
tested 22 GBI transactions (20 applied to both Federal and match and 2 to Federal only) as
follows:

     06AFHNV001 (Clean Energy), AUP period of April 1, 2011 through March 31, 2013
          o	 Total of 11 transactions
    	 12ACHNV001 (Nevada Conservation Corps), AUP period of August 21, 2012 through
       March 31, 2013
          o	 Total of 11 transactions

a.		 The Amount Paid Exceeded The Approved Purchase Order Amount

   For one of 30 samples tested, it was noted that the amount paid exceeded the purchase
   order by $265. UWSN did not provide any evidence that the excess amount over the
   purchase order was reviewed and approved prior to being paid. UWSN has no
   procurement procedure in place that addresses actions to be taken when the invoice
   submitted exceeds the purchase order amount to ensure that such overages are reviewed
   and formally approved. In this case, office furniture was purchased and the additional


                                              26
	
   cost was for desk keys and delivery and set up of the furniture. The additional cost
   incurred was considered reasonable and allowable. This will be noted as a control
   weakness.

b.		 Work Was Performed Prior To Start Of The Grant

   For one of 22 samples tested for GBI, Federal costs incurred prior to the start of the grant
   were claimed against the grant. The consultants invoice shows that the work was
   performed over a period from July 2010, through July 2011, for $4,037. The total amount
   was claimed as Federal cost. We identified $553 of that that cost as being performed
   prior to the start of the grant period and was claimed in error. After applying Federal
   indirect costs of 5 percent, we are questioning a total Federal cost of $582 as not being
   allocable to grant No. 06AFHNV001.

c.		 Cost Was Overstated In The General Ledger

   For one of 22 samples tested for GBI, the transaction amount was overstated in the
   general ledger. Our review of the supporting invoice determined that the chargeable
   amount was $339 to match funds, but $389 was entered into the general ledger for grant
   No. 12ACHNV001 resulting in an overcharge of $50. After applying the match indirect
   costs of 10 percent, we are questioning total match cost of $55 that was claimed in error.

Criteria

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A. General
Principles Section A. Basic Considerations, 4. Allocable costs, states:

  a.		 A cost is allocable to a particular cost objective, such as a grant, contract,
	
       project, service, or other activity, in accordance with the relative benefits
	
       received. A cost is allocable to a Federal award if it is treated consistently with
	
       other costs incurred for the same purpose in like circumstances and if it:
	

       1) Is incurred specifically for the award,
       2) Benefits both the award and other work and can be distributed in
          reasonable proportion to the benefits received, or
       3) Is necessary to the overall operation of the organization, although a direct
          relationship to any particular cost objective cannot be shown.

  b.		 Any cost allocable to a particular award or other cost objective under these
	
       principles may not be shifted to other Federal awards to overcome funding
	
       deficiencies, or to avoid restrictions imposed by law or by the terms of the
	
       award.
	

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A, General
Principles Section A. Basic Considerations, 2. Factors affecting allowability of costs, states:

       To be allowable under an award, costs must meet the following criteria … (g)
       be adequately documented.




                                                27
	
Recommendations:

We recommend that the Corporation:

4a.		 Resolve and recover the questioned Federal costs of $582 and match costs of $55
      related to GBI for grant No. 06AFHNV001 and 12ACHNV001, respectively.

4b.		 Ensure that NV strengthens the monitoring of its subgrantees so that subgrantees:
        Properly record claimed costs in accordance with OMB Circular A-122, and
        Have proper controls in place to address invoices that exceed the purchase order
           amount.

NV Response:

NV concurs with finding 4a, but indicated that it followed its purchase order authorization
policy and practice. The policy did not include a reauthorization process when the cost
exceeds the purchase order. UWSN recognizes the weakness in its policy and has revised
its policy.

NV concurs with finding 4b that the costs were incurred outside of the grant period. NV also
indicated that actual allowable costs for the Federal portion of the grant are not all
reimbursed. NV indicated that it would provide further documentation to the Corporation on
the programs allowable costs on the match side and additional in-kind documentation not
claimed to resolve these costs.

NV concurs with finding 4c that the transaction amount in the ledger was overstated. NV
indicated that it would provide further documentation to the Corporation of additional
allowable match and in-kind cost that GBI had not claimed to resolve the questioned costs.

Auditor’s Comments:

For finding 4a, the Corporation should confirm that NV has verified that procurement policies
and procedures have been revised to address the issue.

For finding 4b, GBI reported the questioned cost as Federal. NV appears to indicate that it
has disallowed some of GBI’s Federal costs, but did not provide any documentation to
support that position for this transaction. NV also made reference to GBI having additional
match costs that were not claimed, but this does not have any impact on the finding. The
Corporation should follow-up with NV during audit resolution to ensure that NV has
implemented effective corrective action to address the finding and resolve the questioned
cost.

For finding 4c, Corporation should follow-up with NV to determine whether the additional
unclaimed match costs could help to resolve the question cost. The Corporation should also
ensure that NV has implemented effective corrective action to address this finding.


Finding 5 – Member Contract Was Not Signed Before The Member Started Service

For one of the 17 member files tested for TCC, the member contract was not signed before
the member started service. TCC did not have controls in place to ensure that the member


                                             28
	
signs the member contract before beginning service. The member was not properly enrolled
prior to starting their service. This is being reported as a non-compliance issue with the grant
provisions.

Criteria

AmeriCorps 2010 grant provisions, Section IV. D. Supervision and Support, 2. Member
Contracts, states in part:

          The grantee should ensure that the contract is signed before commencement
          of service so that members are fully aware of their rights and responsibilities.

Recommendation:

We recommend that the Corporation:

5.		    Ensure that NV strengthens the monitoring of its subgrantees to ensure member
        contracts are signed before service begins.

NV Response:

NV concurs with the finding. NV stated that it has included a check in its program monitoring
of subgrantees to confirm that member contracts are completed prior to start of service.

Auditor’s Comments:

The “Module B: Member Documentation Compliance” check list that is used by NV for
monitoring only indicates a check to verify that the member and the Program Director signed
and dated the member contract. It does not specifically require a check to ensure that the
member signs before starting to serve. NV did not provide any supporting documentation to
show that this check list has been revised. The Corporation should follow-up with NV to
evaluate the adequacy of the 'check' in its program monitoring of subgrantees to ensure that
member contracts are completed before they start serving.


Finding 6 – Subgrantee Did Not Report Program Income and Quarterly Federal
Financial Reports Were Late

a. Program Income Was Not Properly Reported To NV In The FFR

       We determined that UWSN and TCC had unused program income that was not properly
       reported on the FFR submitted to NV, specifically the first FFRs issued during each
       program year. TCC intended to use the full amount of the program income to support the
       match cost for the program, so TCC did not consider the unused program income to be
       excess program income that needed to be reported in the FFR. The FFRs submitted to
       NV and those submitted by NV to the Corporation were not in accordance with the FFR
       instructions and did not properly disclose the amount of program income that had been
       earned, but not yet used by the subgrantees. The unreported program income was used
       as match on the grant in a subsequent FFR period.




                                                 29
	
b. Subgrantee Quarterly Federal Financial Reports Were Submitted Late To NV

      We determined that quarterly Federal Financial Reports (FFRs) were submitted late by
      the subgrantees to NV, as follows:

            GBI submitted one FFR to NV 40 days late.
            TCC submitted two FFRs to NV 14 days and 87 days late.

      Subgrantees indicated that the late filing of the FFR was an administrative oversight.
      Failure to submit FFRs timely could affect future funding for the grantee. The subgrantees
      are not in compliance with their sub-grant agreement.

Criteria

The sub-grant agreement letter, Section V. Progress Reports and Federal Financial Reports,
between NV and the subgrantees states:

         Grantee is required to submit four (4) quarterly program progress reports, and
         four (4) Federal Financial Reports to Nevada Volunteers. Due dates are Jan.
         15th, April 15th, July 15th, and October 15th.

The Federal Financial Report Instructions, Line Item 10l, Total Federal Program Income
Earned, states that a recipient should,

         Enter the amount of Federal program income earned. Do not report any program
         income here that is being allocated as part of the recipient’s cost sharing amount
         included in Line10j [Recipient share of Expenditures].

Recommendations:

We recommend that the Corporation ensure that NV strengthens internal controls over the
subgrantee financial reporting process by:

6a.    Ensuring that subgrantees have controls in place to make certain that FFRs are
       submitted when they are due.

6b.    Ensuring that program income is properly reported in the FFR to NV in accordance with
       the FFR procedures.

NV Response:

NV concurs with the findings. NV plans on strengthening both the guidance and monitoring of
report deadlines, extensions and grant provisions to ensure that all documentation
requirements are clear. NV stated it will also implement additional training and technical
assistance to ensure that reporting deadlines are met. NV also indicated that it will provide
guidance to its subgrantees to ascertain that FFRs are completed correctly.

Auditor’s Comments:

The Corporation should review the training and technical assistance and guidance provided
to ensure that the reporting deadlines are met and the FFRs are completed properly.


                                               30
Finding 7 – Timesheet Missing The Date That The Employee Signed The Timesheet

Based on our testing of 16 payroll and benefits related transactions for NV, we noted one
exception for an Administrative grant federal cost transaction where the employee did not
date the timesheet. No costs were questioned, but this is being noted as a compliance issue.

Criteria

NV Human Resources Policies and Procedures, Policy 2.6 Hours of Operation, Scheduling &
Locations, states:
       Employees will keep Bi-weekly timesheets documenting daily work hours.
       The form must be signed by the employee and submitted to the CEO at the
       end of the Bi-weekly time period. Pay periods are every other Friday.

Recommendation:

7.    We recommend that the Corporation ensure that NV strengthens internal controls over
      payroll so that employees sign and date their timesheets prior to submitting their
      timesheets for supervisor approval.

NV Response:

NV concurs with the finding. NV indicated that it has already taken action to strengthen
internal controls over employee timesheet processing, but will work with the Corporation to
provide reasonable improvement to the process.

Auditor’s Comments:

The Corporation should follow-up with NV during its audit resolution to ensure that the
corrective action implemented by NV is effective.


Finding 8 – Procurement Document Findings

As part of the agreed upon procedures, we selected a representative sample of 10
transactions for each program year reported during the period of April 1, 2011 through March
31, 2013, for a total of 30 transactions (costs for each transaction were applied to both
Federal and match) for UWSN for grant No. 06AFHNV001.

a. Purchase Order Was Missing The date It Was Authorized

     For 1 of 30 samples tested, it was noted that the purchase order in support of the
     transaction contained an authorized signature, but the approval was not dated. No costs
     were questioned, but this is being noted as a compliance issue.

b. Purchase Order Was Not Authorized Timely

     For 1 of 30 samples tested, it was noted that the purchase order was not authorized in a
     timely manner. The equipment rental for an event occurred on October 22, 2011, but the


                                             31
     purchase order was not signed until October 26, 2011. No costs were questioned, but this
     is being noted as a compliance issue.

Criteria

UWSN’s Policies and Procedures Manual states:

        Purchase orders must be requested and assigned prior to any purchase
        expected to exceed a value of $100 but not limited to services and office
        supplies. The procedures are: 1) The requester fills up a PO form showing
        the vendors name, division/department name, quantity, cost, and description
        of the merchandise; 2) Then, the requester forwards the form for signature to
        the authorized signatory following the spending authority levels; 3) Once
        signed, the requestor then requests a PO number from Accounts Payable
        Associate, who controls and monitors the PO number using a log book; 4)
        The requestor turns over the original PO [to the AP Associate] and maintains
        a copy for his department’s file…

Recommendation:

We recommend that the Corporation:

8.    Ensure that NV strengthens the monitoring of its subgrantees so that subgrantees are
      complying with their procurement procedures.

NV Response:

NV concurs with the findings, but did not provide any details.

Auditor’s Comments:

The Corporation should determine how NV has strengthened its subgrantee monitoring and
determine if the corrective action is effective.




                                              32
                     APPENDIX A
_______________________________________________________________
                    NEVADA VOLUNTEERS
              RESPONSE TO THE DRAFT REPORT
                                                                                                                         Appendix A




                                   April 23, 2014

Commissioners
                                   Stuart Axenfeld
                                   Assistant Inspector General for Audit
Stacy Woodbury, Chair              Corporation for National and Community Service
Nevada State Medical Association
                                   1201 New York Avenue, NW, Suite 830
Brian Catlett, Vice-Chair          Washington DC 20525
Fennemore Craig Jones-Vargas

Debra Gallo, Treasurer             Dear Mr. Axenfeld:
Southwest Gas Corporation
                                   Thank you for the opportunity to respond to the Office of Inspector General (OIG) draft report
Beth Bartel, Secretary
Valley Hospital                    on the Agreed Upon Procedures for Corporation Grants Awarded to Nevada Volunteers.

Irene Bustamante Smith             The Nevada Commission appreciates every opportunity to strengthen commission policies,
Assemblyperson District 42
                                   procedures and program administration, for which this audit process provided us valuable input.
Sean Corbett                       The Commission had implemented corrective action pertaining to the findings in the draft report
IGT                                in response to a CNCS Compliance Monitoring Visit (Fall 2013). The OIG Audit and draft report
Viviana Dickieson                  provides us an additional opportunity to strengthen our systems.
Caesars Entertainment
                                   We appreciate the attention the Office of Inspector General staff took to insuring that the
Hillery Gladden, Ex-officio
CNCS                               Commission understood the audit process and the steps for response. The professionalism
                                   and ongoing communications of the on-site audit team was also appreciated and supported the
Susan Haas                         process to be significantly more effective in identifying and addressing areas so that we might
Nevada Rural Counties RSVP
                                   all reach our goal of being exemplary stewards of taxpayer dollars.
Maggie Arias-Petrel
Global Professional Medical        Sincerely,
Consulting

Randy Robison
CenturyLink

Jonathan Senda
Youth Commissioner

Anna Severens                      Amber Martin-Jahn
Nevada State Dept. of Education,   Executive Director
Superintendent's Designee

Jeremy Stocking                    Cc: Stacy Woodbury, Chair Nevada Volunteers
Children's Cabinet                     Karen Gandolfo, Audit Resolution Specialist
Brandon Thompson
Youth Commissioner

Jesse Wadhams, Esq.
Newmont Mining Corporation
                                                                  639 Isbell Road        Phone: (775) 825-1900
Captain Cedric Williams                                                 Suite 220        Fax: (775) 825-1901
No. Las Vegas Fire Department                                    Reno, NV 89509          www.nevadavolunteers.org


Amber Martin-Jahn
Executive Director
Nevada Volunteers
Nevada Volunteers OIG Audit Response

Finding 1: National Sex Offender Public Registry
The Nevada Commission concurs in part with the substance of finding 1 as related to the National Sex Offender
Public Registry requirement of the National Service Criminal History Check (NSCHC), but not the questioned
costs.

Finding 1.a. National Sex Offender Public Registry search was not conducted until after the
employee/member started working on the grant. The Commission concurs with the finding that member
NSOPRs were conducted late in the case of members 12, 22, and 8 and had taken corrective action prior to the
OIG visit by disallowing service hours prior to the NSOPR. The Commission disagrees with the cost findings in
relation to members 12 and 22 who begin service fall of PY11-12 year during which time CNCS issued guidance as
there was widespread confusion concerning the timing of the NSOPR as an eligibility screening prior to service
versus the eligibility based off of not being listed on the NSOPR. The Commission disagrees with the questioned
costs related to member 8 as said member had allowable hours served after the NSOPR was conducted on the
Service log being questioned and the program living allowance policy included member receiving the full amount of
any hours were served.

The Commission concurs with the finding related to employee 2 but does not agree with the questioned costs. The
CNCS requirement of the NSOPW background check for all program personnel was new for Program Year 2010
with guidance issued after the hiring of employee #2. While TCC was not compliant in whole with this requirement
by not conducting the NSOPW on program staff they were not negligent in that they conducted all criminal history
checks required, including the Nevada Sex Offender Registry check which is source documentation for the
NSOPW for a single state check. The Commission stipulates that this should be treated as corrective action due to
timing, but is clear that corrective action would not be acceptable for employees hired moving forward.

Finding 1.b. National Sex Offender Public Registry search did not include nationwide results.
The Commission does not concur with this finding or questioned costs as it is inconsistent with CNCS guidance
instructing corrective action in these instances. In all cases the programs ran initial NSOPRs and took corrective
action prior to the audit to run additional NSOPWs to insure members/employees had complete and compliant
NSOPRs.

Finding 1.c. National Sex Offender Public Registry search was not conducted based off of the member’s
current legal name.
The Commission concurs with this finding in part, but does not concur questioned costs as the program operated in
good faith to conduct all required National Service Criminal History check components on the legal name as
provided by the member to the program. Member completed legal forms, including the certification within the
NCS eligibility system with name checked on the NSOPR which is now identified as a partial legal name. Program
recognizes need to insure member forms are completed more factually in the future, but disagrees with proposed
questioned costs as they are punitive when the program completed all tasks in good faith and took corrective action
showing the member under full name remained not listed on the NSOPW.

Recommendation:
The Commission is clear that the NSOPR is an eligibility document and must therefore be conducted prior to start
of service and has provided significant training to build Commission Subgrantee knowledge around the
requirements of the NSCHC, an issue with clear confusion among the field as documented in the issuance of a
CNCS guidance member in October 2011 and continued clarification around points related to the NSOPR in the
Final Rule published October 5 2012.
The commission has and will continue to strengthen subgrantee oversight in the area of the National Service
Criminal History Check (NSCHC). Prior to the OIG audit the Commission strengthened the NSCHC oversight as
follows:
     While the commission utilizes a risk based monitoring approach which determined number of member files
        reviews annual. The Commission strengthened this process by including NSOPR review for all member files
        enrolled at the time of the program site visit.
     The language in the subgrant agreement was strengthened to outline the requirements and individual steps
        to ensure a compliant NSCHC for all individuals included in the CNCS funded budget, including specific
        mention of verification of identity through review of Government issued ID.
     Review of Staff NSCHC was added to the Financial Site Monitoring tool during the 2012-13 Program year.
     Since 2012-13 when the final rule was release Nevada Volunteers has hosted more than 6 trainings with
        content specific to the NSCHC rules and has required all program directors to receive the NSCHC training
        as part of the grant start up process and prior to receiving reimbursement. In addition the commission is
        developing a key issues fact sheet for subgrantee leadership and human resources staff to insure that staff
        NSCHC receives the diligence required.

Finding 2 State Criminal Registry search findings
The Nevada Commission does not concur with this finding or questioned costs in whole, as noted below. This
finding interprets initiation as the date fingerprints were taken which excluded initiation documentation options
provided in CNCS guidance in the National Service Criminal History Check FAQs-updated November 5, 2013.
CNCS guidance allows for initiation to be defined as “one step more than getting permission to conduct the checks.
This could include fingerprinting, mailing requests to obtain checks to the state repository, having forms for checks
filled out by candidates, etc.”

Finding 2.a. State Criminal Registry search was not initiated before the employee/member started
working on the grant.

The Commission concurs with the substance of the finding, but do not concur with costs related to UWSN
employee#4. The Commission will work to resolve costs with CNCS.

The Commission does not concur with finding related to UWSN members 14 and 18. Member files included
documentation of the authorization for electronic submission which was the payment stub provided to members
the day they were sent to get the fingerprints. In cases were members did not follow-through with initiation
programs documented repeated attempts of completion of the initiation process, when fingerprints were in fact
obtained.

The Commission concurs with the finding that he criminal background check consistent with the National Service
Criminal History Check requirements and the internal policy of the organization was not followed for TCC
employee 1. However, this questioned cost is in the match category, for which children’s Cabinet has documented
unclaimed match which should be applied to resolve these questioned costs. The Commission will work with CNCS
to resolve these costs.

The Commission does not concur with finding related to GBI Member 3. GBI has a formalized initiation process
which includes email communication to members with instructions for completion of NSCHC components prior to
arriving for pre-service orientation, which is in addition to program commitment and authorization.

Finding 2.b. State Criminal History Registry search results were not completed or documented
The Commission concurs with the intent of this finding but not the questioned costs. This finding fails to
recognize that the criminal history checks for both members 4 and 16 were initiated and completed within the
ability of the organization as documented by proof of fingerprinting. In both cases the program conducted
significant follow-up with the repository and members to re-run checks to obtain results which could not be
provided due to repository records retention rules. Initiation of the check, follow-up with members and repository
were within the member file. The Commission will provide additional documentation to CNCS.
Finding 2.c.State Criminal History was not authorized by the member
The Commission concurs that the program did not retain authorization for consent by the members for Nevada
State Repository checks. Of importance is the Nevada Repository requirement that background check requests be
accompanied by a completed ID form DPS-006 which requires the subject of the search to submit authorization in
order for the State Repository to process the requested checks.

Recommendation: The Commission has and will continue to strengthen subgrantee oversight in the area of the
National Service Criminal History Check (NSCHC) and the State criminal history checks in accordance with the
Federal Regulations and grant provisions. Prior to the OIG audit the Commission strengthened the NSCHC
oversight as follows:

      All subgrantees were required to revise member contracts so it included member authorization for the
       NSCHC
      All programs as part the 12-13 program monitoring visit were required to submit an explanation of the
       initiation process and samples of documentation to the Commission for review. The reinterpretation of
       initiation during the audit process may require reexamination. The Commission will work with CNCS to
       resolve this issue so that clearer guidance may be issued to the programs.

Finding 3 Subgrantee match requirement was not met
The Commission concurs, in part that GBI did not meet its matching requirements on the FFR submitted to
Nevada Volunteers on April 16, 2012, However we stipulate that the FFR is incorrect and does not show actual
excess match which would address this cost finding and would have been corrected should the match issue on the
submitted FFR been identified by Nevada Volunteers and GBI.

GBI has submitted documentation of additional in-kind and approved but not applied Indirect cost agreements to
document excess match. Nevada Volunteer and GBI recommend corrective action include filling of corrected FFR
for the 06AFHNC001 since FFRs are cumulative and the 06AFHNV001 grant remains open. The Commission will
work with CNCS to come to resolution.

Recommendation:
The Commission will utilize a final FFR review form to cross check program match requirements.

Finding 4 Costs recorded incorrectly
4.a. The amount paid exceeded the approved purchase order amount.
The Commission concurs with this compliance finding. However, the PO authorization process was followed in
both policy and practice. The policy did not include a process for reauthorizing a PO due to overage and the
process followed was consistent with internal policy. The subgrantee recognizes this weakness in the policy and has
revised the policy.

4.b. Work was performed prior to start of the grant
The Commission concurs that the charges were incurred outside of the grant period. However, actual allowable
costs for the Federal portion of the grant are not all reimbursed. The Commission will provide further
documentation to CNCS on the programs allowable- costs on the match side and additional in-kind documentation
not claimed to resolve these costs.

4.c. Cost was overstated on the ledger
The Commission concurs that the transaction amount in the ledger was overstated. The Commission will provide
further documentation to CNCS on the programs allowable- costs on the match side and additional in-kind
documentation not claimed to resolve these costs.

Recommendation:
The Commission has and will continue to strengthen subgrantee Training and technical assistance to insure that
costs are recorded correctly.
     Commission Financial Monitoring currently provides random checking of the programs financials to insure
      that claimed costs are in accordance with the OMB Circular A-122. This will be continued and examined
      for potential methods of straitening.
    The procurement policy for the subgrantee in question has already been revised to insure proper controls
      are in place for overages. The Commission will utilize the OIG audit report as a training tool for all Nevada
      programs to highlight areas that might need additional examination, along with covering those topics in
      training and technical assistance.
Finding 5-Member contract was not signed before the member started service
We concur with this finding.

Recommendation:
The Program Monitoring of subgrantees by the Commission has included a check that member contracts are
completed prior to start of service. Training and Technical Assistance will be strengthened in this area, including
possible inclusion in the pre-award coverage of key topics to be aware of/diligent about/common compliance
challenges.

Finding 6-Subgrantee did not report program income and quarterly financial reports were late
The Commission concurs with both 6.a. and 6.b.

Recommendation:
The Commission will strengthen both the guidance and the monitoring of report deadlines, extensions and
provision of to insure that all documentation is clear. Prior to the OIG Audit the Commission strengthened the
language within the subgrant agreement to clarify language around financial deadlines and created a clear close-out
process for each grant year to insure that consistent deadlines are met. The Commission will implement additional
training and technical assistance to support programs in understanding and complying with these changes.

The Commission as a result of the OIG audit provided additional, corrective guidance to Nevada Programs to
insure FFRs are completed correctly. The Commission is working with CNCS to insure its understanding is correct
so that programs receive correct and clear guidance.

Finding 7-Time sheet was missing the date that the employee signed the time sheet
The Commission concurs with the finding that the time sheet was not dated by the employee, but contends that it
was signed and dated by the supervisor documenting submission of time sheet by employee to the CEO for review
at the end of the payroll period as required by the Nevada Volunteers Financial Policy and Procedure, Payroll
Procedures.

Recommendation:
The Commissions 2011 A-133 management letter made note of the opportunity to strengthen internal controls and
operating efficiency and as such the Commission has already taken action to strengthen internal controls over all
financial transactions including employee time sheet processing. Recommending that the Commission work with
the Corporation to continue strengthening these internal processes is reasonable.

Finding 8 Procurement document findings
The Commission concurs with these findings.
                      APPENDIX B
______________________________________________________________
    CORPORATION FOR NATIONAL AND COMMUNITY SERVICE’s
               RESPONSE TO THE DRAFT REPORT
                                                                                         Appendix B



                               NATIONAL&
                               COMMUNITY
                               SERVICEtut

To:           Stuart Axenfeld, Assisj: ,     Inspector General for Audit

From:         ~~·                 r , . rr   ~       rants Management

Cc:           Da id Rebi9i CFO
              Valene Green General Counsel
              Rhonda Honegger, Senior Grants Officer for Policy & Audit
              Bill Basl, Director of AmeriCorps

Date:         April 23, 2014

Subject:      Response to OIG Draft of Agreed-Upon Procedures for Corporation
              For National and Community Service Grants Awarded to
              Nevada Volunteers


Thank you for the opportunity to review the draft Agreed-Upon Procedures report of the
Corporation' s grants awarded to Nevada Volunteers. We will work with the grantee to
develop corrective actions. We will respond to all findings and recommendations in our
management decision when the audit working papers are provided and the final audit is
issued.
